<html>
<title> - [H.A.S.C. No. 112-137]EXPERT ASSESSMENTS ON THE AFGHAN NATIONAL SECURITY FORCES: RESOURCES, STRATEGY, AND TIMETABLE FOR SECURITY LEAD TRANSITION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-137]

 
                       EXPERT ASSESSMENTS ON THE
                    AFGHAN NATIONAL SECURITY FORCES:
                   RESOURCES, STRATEGY, AND TIMETABLE
                      FOR SECURITY LEAD TRANSITION

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 29, 2012

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
75-146                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>  
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    ROB WITTMAN, Virginia, Chairman
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
MO BROOKS, Alabama                   ROBERT ANDREWS, New Jersey
TODD YOUNG, Indiana                  MARK S. CRITZ, Pennsylvania
TOM ROONEY, Florida                  COLLEEN HANABUSA, Hawaii
MIKE COFFMAN, Colorado
             Christopher Bright, Professional Staff Member
                 Paul Lewis, Professional Staff Member
                     Arthur Milikh, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Friday, June 29, 2012, Expert Assessments on the Afghan National 
  Security Forces: Resources, Strategy, and Timetable for 
  Security Lead Transition.......................................     1

Appendix:

Friday, June 29, 2012............................................    21
                              ----------                              

                         FRIDAY, JUNE 29, 2012
 EXPERT ASSESSMENTS ON THE AFGHAN NATIONAL SECURITY FORCES: RESOURCES, 
          STRATEGY, AND TIMETABLE FOR SECURITY LEAD TRANSITION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Critz, Hon. Mark S., a Representative from Pennsylvania, 
  Subcommittee on Oversight and Investigations...................     2
Wittman, Hon. Rob, a Representative from Virginia, Chairman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Boot, Max, Jeane J. Kirkpatrick Senior Fellow for National 
  Security Studies, Council on Foreign Relations.................     2
Keane, GEN John M., USA (Ret.), Former Vice Chief of Staff, U.S. 
  Army...........................................................     4
O'Hanlon, Dr. Michael, Director of Research, Senior Fellow, The 
  Sydney Stein, Jr. Chair of the Foreign Policy Program, 
  Brookings Institution..........................................     7

                                APPENDIX

Prepared Statements:

    Boot, Max....................................................    26
    Keane, GEN John M............................................    37
    O'Hanlon, Dr. Michael........................................    48
    Wittman, Hon. Rob............................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Brooks...................................................    59

Questions Submitted by Members Post Hearing:

    Mr. Critz....................................................    63
 EXPERT ASSESSMENTS ON THE AFGHAN NATIONAL SECURITY FORCES: RESOURCES, 
          STRATEGY, AND TIMETABLE FOR SECURITY LEAD TRANSITION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                             Washington, DC, Friday, June 29, 2012.
    The subcommittee met, pursuant to call, at 11:03 a.m. in 
room 2118, Rayburn House Office Building, Hon. Rob Wittman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM 
       VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Wittman. I want to call to order the House Armed 
Services Subcommittee on Oversight and Investigations. I want 
to welcome folks this morning.
    And today our subcommittee convenes the second of a series 
of hearings related to the Afghan National Security Forces. And 
at this hearing we will receive testimony from outside experts 
about the resources and strategy which the U.S. and NATO [North 
Atlantic Treaty Organization] are devoting to training the ANSF 
[Afghan National Security Forces] and the timetable for 
transitioning security lead responsibility to the ANSF.
    Our panel today includes Max Boot, the Jeane J. Kirkpatrick 
Senior Fellow for National Security Studies at the Council on 
Foreign Relations--Mr. Boot, welcome; Retired General Jack 
Keane, former Vice Chief of Staff of the U.S. Army; and Michael 
O'Hanlon, Director of Research and Senior Fellow at the Foreign 
Policy Program at the Brookings Institution.
    General Keane, Dr. O'Hanlon, thank you so much for joining 
us today. We look forward to your testimony.
    My views on these issues have been informed by a recent 
trip to Afghanistan. And during my visit I had several 
opportunities to talk with folks in provinces and met with 
local leaders, including the chiefs of police. I also had the 
opportunity to talk to our military commanders on the ground, 
who provided their impressions of the level of support that 
will be needed to create a self-sustaining ANSF. It is my hope 
that our witnesses today can provide us some further context to 
these important issues.
    And before we move on, I want to take a moment to highlight 
the extraordinary efforts of our All-Volunteer Force serving in 
Afghanistan. These brave men and women are conducting daily 
combat operations against the Taliban, Al Qaeda, and associated 
terrorist networks. And earlier this month, I saw their 
sacrifice firsthand, and want to convey my appreciation for 
their service here today, thank them and their families for the 
service and sacrifice they provide to our Nation.
    As an administrative note, I recognize that members of 
other subcommittees have joined us: Mr. Thornberry, our Vice 
Chairman of the House Armed Services Committee.
    Mr. Thornberry, thank you for joining us.
    Pursuant to the committee rules, I will recognize these 
members after all O&I Subcommittee members have had an 
opportunity to question the witnesses.
    And, with that, I will turn to Mr. Critz, our acting 
ranking member, for any opening statement he may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 25.]

    STATEMENT OF HON. MARK S. CRITZ, A REPRESENTATIVE FROM 
   PENNSYLVANIA, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Critz. Thank you, Mr. Chairman.
    And I just want to say thanks, gentlemen, for coming in. As 
we move forward with the transition in Afghanistan, what we are 
trying to do is make sure we have as much information so that 
we can make the best decision for our country, for our men and 
women in uniform, and for Afghanistan, for the effort made 
there.
    And I yield back. Thank you.
    Mr. Wittman. Thank you, Mr. Critz.
    And we will begin with the testimony of the witnesses.
    Mr. Boot.

 STATEMENT OF MAX BOOT, JEANE J. KIRKPATRICK SENIOR FELLOW FOR 
    NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Boot. Thank you very much, Mr. Chairman, for convening 
these hearings.
    Mr. Wittman. Is your microphone on?
    Mr. Boot. Thank you very much, Mr. Chairman, for convening 
these hearings and casting such an important spotlight on these 
vital issues which I fear get short shrift in our political 
culture.
    Since the focus of the hearings is the ANSF, let me just 
say very briefly that I think ANSF capabilities are increasing 
but we must not exaggerate what they can do. And they still 
need considerable support from American forces in terms of 
intelligence, medevac [medical evacuation], air, fire support, 
clearance packages, all sorts of other things, without which 
they would not be nearly as effective as they are. And they 
still have tremendous challenges in securing a country of 30 
million people with a force that is only going to grow to about 
350,000 in the course of this year.
    Now, the Council on Foreign Relations issued this week a 
policy innovation memo in which I suggested seven concrete 
steps that we need to take to secure the gains that have been 
made by our troops--to whom you have rightly paid tribute--the 
gains secured by our troops, by our allies, and by Afghan 
troops over the course of the last couple years during the 
Afghan surge. I fear that if we don't do enough follow-up, the 
gains will be lost, and we will be placing too much of a burden 
on the Afghan security forces to try to expand the tenuous 
security gains that have been made.
    I realize our time is very limited, so let me just run down 
very briefly the seven steps that I think are important.
    The first and the most important is not to reduce funding 
for the ANSF. This is something that causes me the greatest 
concern, the fact that currently the Administration plans to 
reduce funding from about $6 billion a year down to $4.1 
billion a year after 2014, which will necessitate a reduction 
in the ranks of the ANSF by about 120,000 soldiers and police.
    It is far from clear where these 120,000 could possibly 
find gainful and legal employment in Afghanistan's economy. 
Many would no doubt wind up working for drug lords or 
insurgents. This is perhaps the most calamitous step we could 
possibly take to destabilize the situation in Afghanistan. And 
I really do not see the necessity of doing so when all we would 
be saving is approximately $2 billion a year, which I realize 
in the real world is a lot of money but around here is not a 
significant portion of the Federal budget.
    In any case, we don't have to contribute the entire amount 
ourselves; we should certainly do more to try to get our allies 
to pay. But I think it is incumbent on us not to reduce and 
shortchange the ANSF, which could have calamitous consequences 
for Afghanistan's security.
    The second most important recommendation that I would make 
is not to reduce our own force levels precipitously. By the end 
of September, we are going to have 68,000 troops in 
Afghanistan. And unless there is a substantial improvement in 
the situation on the ground between now and the end of 2014, I 
would recommend that we keep those force levels at about 
68,000.
    Because what the troops have been able to do in the last 
couple of years is to vastly improve the security situation in 
the south. We have not seen any such improvement in the east, 
where Haqqani sanctuaries remain intact only a few hours' drive 
from Kabul, as I am sure you heard, Mr. Chairman, during your 
visit. This is a very dangerous situation to leave behind which 
could potentially destabilize and, in fact, lead to the 
overthrow of the current government unless we do more to 
establish conditions of security, which will be difficult 
enough to do with even 68,000 troops and I fear impossible if 
we go substantially below that number.
    We also need to make sure--and this is my third 
recommendation--we need to make sure that we don't 
precipitously cut our force levels after 2014. In some quarters 
of this town, there is some magical thinking going on, I fear, 
that leaving only a handful of special operators out there by 
themselves can secure all of our interests in Afghanistan, 
which is far from the case.
    Even if we want to maintain the Joint Special Operations 
Command at their current or close to their current level of 
operations, it requires a vast infrastructure of forward 
operating bases, medevac, air support, all sorts of platforms 
to enable the men and women of the Special Operations Forces to 
be as effective as they are. And if we get force levels below, 
let's say, 30,000 after 2014, I fear we will not have the 
infrastructure in place to enable us to carry out even the 
minimal advisory and special operations missions that I think 
most of us agree need to be performed.
    In terms of other recommendations, I will run through them 
very, very quickly.
    I think we need to go slow on peace talks, not try to force 
the Karzai government into an ill-advised deal with the Taliban 
that would lead to a backlash from the Northern Alliance.
    We need to identify and groom a successor to President 
Karzai, who is due to leave office in 2014.
    We need to end U.S. subsidies for the Pakistani military, 
which is, in effect, subsidizing the other side.
    And, finally, I believe we need to launch drone and/or 
special operations strikes on Haqqani and Afghan Taliban 
leadership targets within Pakistan. They cannot have impunity 
to operate within Afghanistan, as they currently have, if we 
expect to be at all successful in the long run in Afghanistan.
    That concludes my testimony, Mr. Chairman.
    [The prepared statement of Mr. Boot can be found in the 
Appendix on page 26.]
    Mr. Wittman. Thank you, Mr. Boot. We appreciate your 
testimony. Thank you for your viewpoints, and we look forward 
to questioning.
    General Keane.

 STATEMENT OF GEN JOHN M. KEANE, USA (RET.), FORMER VICE CHIEF 
                      OF STAFF, U.S. ARMY

    General Keane. Thank you, Mr. Chairman and Ranking Member 
and the other members of the committee, for inviting me to 
testify today. It is a pleasure always to be back in front of 
the House Armed Services Committee and also to talk about an 
important subject, the Afghan National Security Forces.
    I am delighted to be up here with Michael O'Hanlon and Max 
Boot. I have known these guys for years, and I truly admire and 
thank them for their continued contribution to national 
security.
    As you know from the submission to the record, I have done 
four assessments in Afghanistan in the last 18 months for our 
commanders, and the last one was for General Mattis and General 
Allen in January. And I spent a considerable amount of time 
with our forces down at the platoon and company level and the 
Afghan National Security Forces who are their counterparts.
    And I will just say upfront that, you know, we have had 
much success in the security situation since we applied the 
surge forces, and particularly in the south, which was the 
priority of those surge forces. And we have begun, just begun, 
to turn the momentum in the east. The frustration there is we 
don't have the force generation, because of the pullout of our 
surge forces, that we had in the south and southwest, I think, 
to be able to achieve the same kind of end state.
    Also, the other thing is, I believe the ANSF is a capable 
force, and it is beginning to stand up to the task of taking 
over from the United States and NATO forces. However, there are 
many challenges. You know 2014 is a major transition year for 
us, politically, economic, and also from a security 
perspective.
    Just let me say that on the political and economic side 
there has been considerable less effort in a successful 
transition than there has been on the security side, from my 
perspective, even though that was not the major part of my 
assessment in Afghanistan; it has always been security. But you 
cannot be immune to what is going on around the security 
situation.
    I think there are four key decisions that are facing us in 
the next year, maybe a year and a half, that are going to be 
made that will dramatically influence the stability and 
security of Afghanistan, some of which Max has mentioned. And 
all four of them will impact dramatically on the ANSF success.
    Key decision one is the post-surge U.S. forces. That is the 
68,000 that Max mentioned. I totally agree that we cannot 
prematurely reduce that force. If we do, we drive the risk up 
far too much in terms of what we are trying to achieve in the 
east with the forces we have and the side-by-side operations 
that are so critical to the Afghans. When they are training 
side-by-side with us, what they get out of that in terms of 
their own performance and their own growth and development is 
exponential as opposed to just providing them advice, because 
they see what ``right'' looks like every single day from 
sergeants, soldiers, and officers.
    Key decision number two is the funding for the ANSF. You 
know our plans are a force level of 352,000, which we are about 
at. We maintain that through 2015 at a cost of $6 billion, 
largely provided by U.S. dollars. Discussions are taking place, 
as we know, right now with options on the table to reduce that 
to a force of 230,000 beginning in 2016.
    Now, think about that. I mean, this makes no sense. How can 
we expect the ANSF to protect the people with one-third less 
force only a year after we almost zero out the U.S. NATO force 
of 100,000? And the issue is about $2 billion a year. We spent 
over a decade investing in the training and equipping of the 
ANSF. By 2014, we will have the results of that investment: an 
ANSF capable of protecting its people. So why, after all these 
years of investing, would we gut that force and put the entire 
security mission at risk?
    In terms of the timetable, the ANSF funding should remain 
through 2020, in my view, as part of our strategic partnership 
agreement. And, of course, as Afghans are able to pay an even 
greater share, then that should be expected. And we can reduce 
that force in size prior to 2020 based on the conditions, but 
let it be the conditions and not an arbitrary financial number. 
A 230,000 ANSF force beginning in 2016 would have a disastrous 
impact on the morale of that force and, I believe, in and of 
itself, almost certainly guarantees the return of Taliban 
domination.
    The third key decision is the residual U.S. NATO force 
post-2014. This force should be sized for the missions that are 
vital to continued success; it should not be an arbitrary 
number. Those missions are counterterrorism, training 
assistance, security--those are forces to protect the force 
itself, which will be largely defensive--and then you need the 
enablers. The enablers are needed for all three of the forces. 
For counterterrorism, we need enablers. For training 
assistance, we do. And we also need enablers for the 
international community residual forces and the ANSF.
    Now, what are some of the things that the ANSF truly needs? 
Well, first of all, it is primarily Army. And when you look at 
the Army that is on the battlefield today, it is largely a 
maneuver force. So it needs major functional support for 
sometime beyond 2014. What am I talking about? Intelligence, 
artillery, aviation, engineers, and logistics, to include 
medical evacuation.
    The intelligence function is almost exclusively human 
intelligence. They are good at it, but they have no 
technology--no UAVs [unmanned aerial vehicles], no sensors, no 
listening devices to monitor cell phone communication and 
radios. And their aviation fleet, some of which is there, is 
mostly Russian-made and Italian-made C-27s. Every one of those 
C-27 aircraft has been broke, on the tarmac, for months. At 
some point, not initially, but at some point, we should 
transition them out of those aircraft to U.S. helicopters and 
C-130s as part of a long-term partnership with the Afghans, 
some of which, in time, they will be able to pay for 
themselves.
    The other thing is that the ANSF has no route- and mine-
clearing equipment, none. And this should be part of an anti-
IED [improvised explosive device] package that is provided. If 
we shut down our intel systems, don't have anti-IED for them, 
and they are left out there by themselves, their casualty rate 
will spike rather dramatically.
    The last decision is the Afghan Taliban sanctuaries. You 
know we have one at Miram Shah and one also in Quetta.
    And the way you should think about this, think of these 
sanctuaries as loosely knitted military bases with the 
following functions resident in both: command and control; 
intelligence; training; logistics, to include family housing 
and barracks. At these bases, leaders set the strategy in 
Afghanistan, brief middle-level leaders to return from the 
fight to Afghanistan, plan for future operations, provide 
intelligence to field commanders, train and refit fighters and 
bombers, and provide resources and logistics.
    Furthermore, the Pakistan Army, particularly the ISI 
[Inter-Services Intelligence], provides intelligence on U.S. 
NATO operations in those sanctuaries to those commanders. They 
provide training and logistics. And as a result, the Taliban 
have managed to protract a war for over 8 years, which has 
eroded the political and moral will of the American people and 
our NATO partners.
    Something must be done about these sanctuaries if we intend 
to succeed beyond 2014. We should start building the target 
folders now, which would become a major collection item for our 
intelligence services, which it is not. And then we should 
start conducting drone attacks against those leaders in the 
same way we have had success against the Al Qaeda leaders in 
the FATA [Federally Administered Tribal Areas].
    What would be the result? Well, look at what has happened 
to the Al Qaeda after systematic attacks on leadership. They 
became largely a defensive organization in Pakistan, no longer 
able to control their operations or project power outside of 
it. That would be an absolute game changer in Afghanistan, if 
we started to systematically change the behavior of the Taliban 
leadership both at Quetta and Haqqani leadership also at Miram 
Shah.
    Let me conclude by saying that these four decisions that 
are in front of us are going to determine whether we are going 
to be successful in Afghanistan or not. We are on the cusp of 
ending our participation in our longest war. Never before in 
our Nation have so few served for so long on behalf of so many.
    And war is fundamentally a test of wills, and that is why 
leadership is always at a premium. This effort has enjoyed your 
support, and it begs for your continued leadership and support 
as we begin to write the final chapters.
    You know, Ryan Crocker, who you all know well, our 
distinguished and capable Ambassador in Afghanistan and former 
Ambassador in Iraq and Pakistan, has said, ``How we leave a war 
and what we leave behind is far more important than how we 
began it.''
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane can be found in 
the Appendix on page 37.]
    Mr. Wittman. Thank you, General Keane.
    Dr. O'Hanlon.

STATEMENT OF DR. MICHAEL O'HANLON, DIRECTOR OF RESEARCH, SENIOR 
   FELLOW, THE SYDNEY STEIN, JR. CHAIR OF THE FOREIGN POLICY 
                 PROGRAM, BROOKINGS INSTITUTION

    Dr. O'Hanlon. Thank you, Mr. Chairman. I think you and the 
General and Max have framed the discussion beautifully, so I am 
just going to pick up on one or two points and be brief.
    First of all, I would like to underscore my concern, as 
well, about the projected intention to downsize the Afghan 
security forces quickly after 2014 or 2015. And I agree, by the 
way, with the argument that we have to be careful about our own 
forces. But I am especially concerned about what we are saying 
now about the potential downsizing of the Afghan forces.
    And I just want to give a quick anecdote based on my trips 
to Afghanistan of how this concept of downsizing rapidly began 
and, I think, how it has been misconstrued in the ensuing 
discussion. As I understood things from discussions at the U.S. 
part of the training command, the United States initiated a 
discussion about what long-term Afghan forces might have to be, 
in terms of their size and capability and cost, and did not 
work through NATO or with the Afghans, just tried to get some 
notional concepts on the table, one of which was this famous 
option to go to 230,000 Afghan forces or, in a suspiciously 
precise formulation, 228,500 Afghan Army and police.
    That was one of four scenarios based on a certain assumed 
threat environment, a relatively favorable one, because, of 
course, 228,500 is a lot less than we have now. Right now we 
have about 130,000 NATO troops and about 300,000 Afghan forces 
in the field, plus another 40,000 or so that are training. So 
right now we have more than 400,000 combined forces. We are 
intending to go down, perhaps, to 230,000.
    Again, this was one of four scenarios, which the United 
States did not intend to be a prediction of where we should go, 
but the idea was to give some concreteness to the planning 
exercise and also give our diplomats in the State Department, 
who I think have done a very good job with a difficult 
portfolio, something to plan for with NATO allies; going to our 
allies and saying, can you at least consider this to be a 
minimal requirement, and therefore try to pony up some fraction 
of the cost even for this minimal requirement.
    But, unfortunately, what was designed as an illustrative 
scenario and a way to go out and elicit some help from allies 
has become the default plan. And I don't quite know when or how 
that happened, but I think it is a bad idea. I think we should 
assume the Afghan forces need to stay at 350,000 for some 
number of years after 2015 until proven otherwise.
    And Max's point is right on the money, that the $2 billion, 
plus or minus, that is at issue here, while it is real money, 
is nothing compared to the $100 billion a year we are spending 
now on our own operations in the field. And if we even had to 
add 2,000 more American troops post-2014 to compensate for an 
insufficiently sized Afghan force, that would consume all the 
savings right there because of the enormous expense of our 
forces in the field.
    So I just wanted to add my voice----
    Mr. Wittman. Sure.
    Dr. O'Hanlon [continuing].and also explain the genesis of 
what I think has become, you know, misconstrued. It was 
supposed to be an option or a scenario. Now it has become the 
default plan.
    Just four more quick points, then I will be done. And this 
is in the spirit of reminding some of the broader debate and 
discussion about some of the good news from Afghanistan. We are 
all aware of the bad news. I don't in any way trivialize it. I 
think the bad news is being accurately reported, and it is 
real. But the good news needs to also be kept in mind. And I 
think the General and Dr. Boot have done a good job, as have 
you, of reminding the country in this discussion of what we are 
able to make progress up against, but let me add four more 
specific points.
    One is--and it is a point that General Allen has made, and 
others--the Afghan forces are now leading about 40 percent of 
all operations. And these are typically the easier ones, so, 
you know, we have to be clear and transparent about that. But 
they are doing a fair amount even with the more difficult 
missions--for example, the April 15th coordinated attacks in 
Kabul and elsewhere, which were handled primarily by the Afghan 
security forces. And I believe that was also the case in the 
tragic attacks last week at the hotel resort near Kabul in 
which Afghan forces took the primary role. Their special forces 
are getting pretty good, by all accounts, and I think that is 
worth bearing in mind, as well.
    Secondly, the Afghan local police, they tend to make the 
news when they do something wrong or when somebody else, some 
militia claims to be Afghan local police and goes out and does 
something wrong. And I think, however, this force, on balance, 
is doing extremely well. There have been some investigations of 
the various alleged misdoings of some of the individual units.
    And for those who aren't familiar, perhaps C-SPAN viewers, 
with exactly what this concept is, these Afghan local police 
are essentially community-watch organizations under government 
supervision with American training but, nonetheless, different 
than the Army or the police. And they defend their own 
communities; they are not allowed to go beyond their 
communities, as you well know.
    And there have been some cases of abuse, but--there were, I 
think, nine alleged cases last year. Subsequent investigations 
suggested that one or two were serious violations of proper 
procedure or law by the Afghan local police. Overwhelmingly, 
however, these forces are operating well, and they are holding 
their own. They are taking the highest number of casualties, 
percentage-wise, of any Afghan force. And even when they are 
overmatched, they are holding their ground 80 percent of the 
time against insurgents, even when they don't have help quickly 
from Afghan Army or NATO Army forces. So I think they deserve 
credit.
    The bad news here is that the reason they are good is 
because we are being very careful in how we build them up. And, 
again, I think members of this committee are well aware of this 
fact, but that this is not an out-of-control reincarnation of 
the Afghan militias. We are having American and other NATO 
special forces operate in the field with these folks for 
several months at a time before we certify them as ready to go 
on with their own missions. And that is why there are only 
12,000 of them right now.
    So I do think we have to bear in mind, this is not going to 
be the silver bullet that the Sons of Iraq, to some extent, 
were in Anbar Province. It is not going to be that big of a 
contribution to Afghan security. But it is still a useful one. 
That is my second point.
    Third point: People talk about sometimes in very loose ways 
how the Afghan security forces are dominated by the Tajiks or 
other minority groups. And it is true that we have too high of 
a dependence on Tajik officers in certain parts of the Afghan 
security forces. But the overall ethnic composition of the 
Afghan security forces almost exactly mirrors the demographics 
of Afghanistan. And, of course, that is because of people like 
General Caldwell and General Bolger and their associates in the 
Afghan forces making great effort to ensure that this is so.
    And then, finally, my last point: Where we do see 
misbehavior, corruption, nepotism, and, to some extent, ethnic 
partiality in the behavior of Afghan leaders, the Afghan 
leadership and the NATO leadership are trying to get rid of 
these people and replace them. And, again, as you know from 
your recent trip, and some of the things I was told on my trip 
in May, 50 Afghan Army leaders in the east of Afghanistan have 
been replaced in just the last year--50. And this is often the 
Americans, having eyes on the operations of these Afghans, 
reporting up the chain of command, and then General Allen or 
someone else may go see General Karimi or Minister Wardak or 
President Karzai, and there is an exchange of views. And the 
Afghans ultimately make the decisions, they control their own 
security forces, but we provide them with information, and they 
take it seriously.
    And then, finally, B.K. Mohammadi, the Minister of 
Interior, some people think that he is a little too aggressive 
in how he fires people. Some people think he is a Tajik, you 
know, nationalist of some type. But, for the most part, what 
appears to be the case is he is firing incompetent leaders of 
whatever ethnic persuasion they may be. And he has just 
replaced 70 in Herat, including a number of his own fellow 
Tajiks.
    So I see a lot of signs of hopefulness in the Afghan 
security forces. The title of my testimony was that the glass 
is about 55 percent full, and that is the point I will finish 
on. Thank you.
    [The prepared statement of Dr. O'Hanlon can be found in the 
Appendix on page 48.]
    Mr. Wittman. Very good. Thank you, Dr. O'Hanlon.
    Members of the panel, thank you so much. And we will begin 
with our line of questioning.
    I want to go back to my conversations when I was in theater 
with General Allen and Ambassador Crocker and their assessment 
of where we are, where they see the need going forward. One of 
the concerns that I have in looking at, strategically, the plan 
going forward, as you know, now we are in a situation of a 
force of 68,000 at the end of 2012, and then making the 
decision through 2013 as to where we progress by 2014, and 
doing that in a transition of five tranches.
    Now, the concern to me is that, as you look at those 
tranches, the easier transition points take place up front, the 
more difficult transition points take place in the end, which, 
to me, is counterintuitive to drawing down our forces, having 
less capability there. So you have less capability facing a 
more difficult transition time, and then not having a full 
complement there in place of ANSF.
    So my concern is, does that logically make sense in how the 
transition is to take place? So I got their perspective there. 
They have proposed making some changes, moving some of the more 
difficult areas of transition into tranche three, which is what 
they are beginning that effort now.
    That being said, as you said, the interesting point is a 
somewhat of a different approach as far as the total number of 
ISAF [International Security Assistance Force] forces after 
2014 and then a drawdown, as you said, with ANSF forces not 
long after they are up to the full 350,000. My conversations, 
too, with Defense Minister Wardak is that he feels that going 
to 230,000 at that point in time, at the end of 2016, will 
leave a power vacuum and that they are concerned about being 
able to transition those 120,000 people into some productive 
element of society there and not have them become part of the 
insurgency.
    So I think there are a number of different areas there 
where it looks like, to me, there is some counterintuitiveness 
about the plan going forward.
    All of you all touched on certain parts of that. I want to 
get your thoughts about what impact that has on our success on 
the current track and what the contingency should be if these 
scenarios, as they are planned now, knowing what has been 
proposed, what should the contingency be if those elements of 
the plan don't work out as proposed.
    And I will go--I will start with Mr. Boot.
    Mr. Boot. Well, I would just reiterate what General Keane 
said, which is that all of our decisions need to be conditions-
based. They should not be imposed based on a timeline dictated 
in Washington or on budget decisions made in Washington for 
purely Washington reasons. I think they ought to correspond to 
the conditions on the ground.
    And I think we need to be, as General Keane suggested and I 
think as Mike would certainly agree, I think we need to be very 
careful about the drawdown and managing that in a responsible 
way so that we don't leave a power vacuum. And I am afraid that 
could well be the result of the current trajectory that we are 
on.
    So I think we need to be very careful, go slow, and make 
sure that we are not shrinking the ANSF or shrinking our force 
presence prematurely, even if conditions have not improved a 
good deal. And there has been some improvement, certainly, in 
the last couple of years, but it is very uneven. It has been 
mostly focused on the south. The east remains very dangerous 
and still in need of considerable pacification.
    So I would, you know, as my colleague said, I would urge a 
go-slow, conditions-based approach.
    General Keane. You know, it is pretty interesting what has 
happened to us. I think if the Administration at the beginning 
asked one of the generals, ``I will give you 5 years to solve 
this war, and I will give you the resources to do it,'' I think 
anybody would have taken that. And that is what we have; 2009 
to 2014, it is 5 years.
    But what is the problem? The problem is, right from the 
beginning, we start tying their hand. The first tying of the 
hand was Petraeus and McChrystal recommended a minimal force of 
40,000; they got 30,000, which was 25 percent less. What did 
that do to us? They wanted to conduct a simultaneous campaign 
in the south and in the east to collapse the enemy, put as much 
pressure on it. Without that additional 10,000, could not do 
it. We had to do it sequentially. What did that do? Protracts 
the war, drives up casualties, evaporates more political will 
at home.
    Second problem we have, another handcuff, is Petraeus wants 
to keep the surge forces that the President gave him, the 
30,000, much longer at a much higher level. They are all gone 
before this year is out.
    So that is where we are at the point of your question now. 
Given those two things, those dynamics have already happened--
and there is pressure on the commanders to stay on a schedule 
that transitions our combat forces in 2013 totally, not 2014, 
and then be out of there by 2014. In my judgment, what is 
happening to support that is far from conditions-based. That is 
a date that we are moving to, and, by God, we are doing it.
    We should take that pressure off of them so that they can 
come back and say, look, we have to slow this down a little 
bit. That is the major issue. We have--two major issues, to 
answer your question, in terms of contingencies is: slow down 
that transition if the commanders are having problems with it, 
which I think they will, particularly in the east; and, also, 
keep the ANSF at the resource level it should be at with its 
enablers.
    Mr. Wittman. Very good.
    Dr. O'Hanlon.
    Dr. O'Hanlon. Chairman, I will put it in these terms 
because I agree with what my colleagues have said.
    As we all remember, when President Obama was inaugurated, 
he had been adamantly against the Iraq war but he gave his 
field commanders time to execute the drawdown over the next 19 
months and wound up keeping 50,000 troops, which I think was a 
good decision on his part, rather than the original intention 
to go very small. And he gave the field commanders time, as 
well, to figure out what the drawdown path would be. And as we 
all recall, they were allowed to keep the forces through the 
Iraqi elections of early 2010 and do most of the drawdown a 
year and a half into the Obama presidency.
    I think something similar is going to be necessary and 
advisable with whoever is in the White House come January. 
Whoever does a policy review in the late fall, early winter, I 
hope they give the field commanders the same leeway. Because 
the answer to your question, in my mind, is that as we do this 
transition to Afghan lead, we need to have substantial 
capability that we still retain to be able to back them up if 
they get into trouble, as they likely will.
    So what I would anticipate is that, if we stay at 68,000 
through the fall, which I hope will be the case, then we do a 
review by the newly elected President, whether it is Governor 
Romney or President Obama, and then early in 2013 the President 
largely defers to field commanders and keeps probably most of 
those 68,000 through much of the fighting season of 2014, if 
that is what field commanders recommend. That is my instinct 
about where I think we need to go to address the problem that 
you mentioned.
    Mr. Wittman. Very good, members of the panel.
    I want to welcome Ranking Member Mr. Cooper and turn to him 
if he has any opening statements, and if not, turn to him for 
questions.
    Mr. Cooper. Well, thank you, Mr. Chairman. Since I was late 
getting here, let me defer to my colleague, Mr. Critz, who was 
more prompt than I was. I apologize for having been slow.
    Mr. Wittman. No problem.
    Mr. Critz.
    Mr. Critz. Thank you, Mr. Cooper. Thank you, Mr. Chairman.
    Dr. O'Hanlon, you made a statement that there has been, I 
guess, some issue that maybe more of the commanders were Tajik, 
but if you look at the entire force, it really, 
demographically, matches the country.
    Is the leadership geographic? In other words, is the Tajik 
leadership in Tajik areas? Is it tribal almost in the way it is 
set up, that maybe we are looking at something further down the 
road, that Tajiks are in command in Tajik areas and then other 
tribal areas have other commanders?
    Dr. O'Hanlon. Thank you, Congressman. Let me briefly answer 
and, if you don't mind, invite my colleagues who may know 
certain aspects of this better than I do to correct me if they 
see any place where I am wrong.
    Generally speaking, I believe that while many of the Tajik 
leaders of course come from the northern and eastern parts of 
Afghanistan, they are deployed throughout the country in 
current operations. And the main additional problem--I mean, 
there are ethnic issues, as you well know, and challenges. The 
other one is that it is hard to recruit southern Pashtun from 
the provinces like Kandahar. And we haven't been able to do 
very well with that, even when we try to incentivize them, 
feeling that they can stay in their own home district or 
province for a certain period of time.
    So there are challenges. I don't want to trivialize that. 
And sometimes we have to rely on commanders or recruits from 
other provinces to fill more of a given part of the south than 
we would like.
    But, overall, the Tajiks, even though they come from the 
north and east, they are deployed throughout the country. And 
they are serving well throughout the country, as best I know.
    Mr. Critz. And you are saying that we have--maybe we are 
lacking in Pashtun commanders, then?
    Dr. O'Hanlon. In certain parts of the force. I think, for 
example, the Afghan police, the ANCOP [Afghan National Civil 
Order Police] forces, sort of the elite paramilitary, I think 
those are 50 percent-plus Tajik-led, if I am remembering my 
statistics correctly. That is not true of every kind of unit in 
the Afghan security forces, but that is one concrete example. 
And that causes you some concern.
    Mr. Critz. Yeah.
    Dr. O'Hanlon. But on the other hand, the units are 
individually integrated. And there is a balance, a relatively 
good balance, if you look throughout the force. There is still, 
I think, 40 percent Pashtun leadership out of a Pashtun 
population of 45 percent.
    So it is not bad if you look nationwide across all 
different aspects of the Afghan security forces. But the Uzbeks 
and the Hazara are somewhat underrepresented, and the Tajiks 
are overrepresented, especially in a couple wings of the 
military.
    Mr. Critz. Okay.
    Mr. Boot, you made a statement that part of the seven 
points was that--one of them was that we should discontinue 
subsidy to the Pakistan military. What is your prediction as to 
what that would yield?
    Mr. Boot. Well, I can't say for certain what would happen 
if we stopped subsidizing the Pakistani military, but I do know 
that we have given them tens of billions of dollars in subsidy 
over the course of----
    Mr. Critz. Well, if you are going to make that statement, 
though, you have to figure out it is going to have some impact. 
So----
    Mr. Boot. No, no. Absolutely.
    Mr. Critz [continuing]. What is the impact?
    Mr. Boot. What I was going to say is that we have tried 
very heavily subsidizing them over the course of the last 
decade, an effort basically to wean them away from the Taliban, 
the Haqqanis, to basically bribe them, in a way, into becoming 
our allies, and that effort has totally failed. And I think, as 
a starting point, we need to recognize that effort has failed, 
that the Pakistanis remain as deeply committed to the Afghan 
Taliban, the Haqqani network now as they were a decade ago. And 
so, for that reason, I think it has been counterproductive to 
give all the subsidies that we have given to the Pakistani 
military, which, in essence, has been basically indirectly 
subsidizing the very forces that are killing our personnel in 
Afghanistan.
    So I think--I am not saying cut off all aid to the state of 
Pakistan. I think we should certainly continue to fund civil 
society in Pakistan and an alternative to the military-
dominated, ISI-dominated foreign and national security policy 
they pursue. But I think we need to recognize that Pakistan is 
not our friend here and that giving further subsidies to the 
military will be counterproductive.
    And I don't think it would lead to the kind of consequences 
that some people fear, such as a jihadist takeover of the 
State, because I believe that the Pakistani military is still 
very good at internal control and will still be able to remain 
in power. But the resources that they use in large part for 
preparing for war against India and for subsidizing jihadist 
groups that attack ourselves and our allies, those resources 
will be decreased.
    Mr. Critz. Okay. Thank you. I have no further questions.
    Thank you.
    Mr. Wittman. Thank you, Mr. Critz.
    We will go to Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    In reviewing your written statements that have been 
provided to our staff, one thing stands out, in particular, by 
Dr. O'Hanlon: ``I do not believe it likely that this Congress 
or a future Congress will sustain up to 20,000 GIs in 
Afghanistan at a cost of perhaps $25 billion a year and add 
another $3 billion to $5 billion annually in direct security 
and economic support for the Afghan Government and people.'' 
Then he concludes with, ``But given American politics and 
budget constraints, it would be likely that we are not going to 
be able to do some of the things that have been suggested.''
    On the other hand, I am looking at other testimony of Mr. 
Boot and General Keane. One wants us to ``provide $6 billion a 
year for the Afghan National Security Forces.'' We also have a 
request of perhaps up to ``$25 billion to $35 billion'' 
annually for United States support personnel and Special 
Operations Forces. We have the comment that it ``costs 
approximately $6 billion'' to properly fund the ANSF. 
``Discussions are ongoing to reduce the funding to 
approximately $4 billion, which results in an ANSF reduction 
from 352,000 to 230,000 beginning in 2016. This makes no 
sense.''
    That is quoting from some of the excerpts of the 
testimonies provided.
    Let me see if I can try to interject some financial reality 
to the position that the United States of America is in. Then I 
am going to ask you to think about where the money is going to 
come from that you are asking for.
    We blew through the $15 trillion debt mark in November. 
This year we are going to blow through the $16 trillion debt 
mark. We have had three consecutive deficits in excess of a 
trillion dollars a year. We are going into our fourth one of a 
trillion dollars a year. We have seen what has been going on in 
Italy, Greece, and Spain; they are on the verge of insolvency 
and bankruptcy. But for other communities in Europe, they would 
have already been in insolvency and bankruptcy. I don't know of 
anyone similarly situated that would help the United States 
avoid insolvency and bankruptcy if we continue on this path.
    If we do continue on this path, there is one outcome and 
one outcome only, and that is an American insolvency and 
bankruptcy, which, in turn, means that we may have no money for 
national defense. Think about that. No military personnel at 
all. Even with the sequestration, which is a tip-of-the-iceberg 
kind of situation, you are looking at laying off 700,000 
American uniformed personnel and/or civilian DOD support 
workers and/or private contractors who are supporting our 
military with a gee-whiz-bang weaponry that is so desired by 
other nations elsewhere but they don't have and which gives our 
military capabilities far above and beyond what our enemies 
typically can field.
    So, given this kind of situation, given the Afghan 
economy--I have been to Afghanistan, as have you. Personally, I 
don't think that their economy in the next decade will be able 
to support their own defense needs, which means it is going to 
have to be America, if we are going to continue to put money 
into this, as you all acknowledge in your testimony.
    Where do you think the money ought to come from to pay for 
the sums that you suggest are desirable or needed to stabilize 
the Afghan situation as we continue to draw down our troops? Do 
you want to cut other parts of national defense? If so, where? 
Do you want to cut the welfare programs, entitlement programs? 
If so, which ones? Please give me ammunition or guidance on the 
priorities so that we can get our financial house in order and 
do what you want us to do.
    Mr. Boot first, then General Keane, and then Dr. O'Hanlon.
    Mr. Boot. Well, Congressman, I agree with you about the 
dire state of our finances, but I don't agree that defense is 
the primary contributing factor to it. Clearly, as we all know, 
it is entitlement spending. Defense is only taking about 4 
percent of our gross domestic product and less than 20 percent 
of the Federal budget. That is the entire defense budget; that 
is not the part for Afghanistan.
    And no matter what happens, we are going to dramatically 
reduce our spending in Afghanistan from about $100 billion 
today down to some lesser level. And even at the levels that 
General Keane and I and Michael O'Hanlon recommend, you are 
talking about a two-thirds reduction in the amount of money 
that we are spending in Afghanistan, down to, let's say, $30 
billion, $35 billion a year. And, yes, that is a lot of money, 
but the question in my mind is, what is the alternative?
    And if we are, in fact, trying to desperately stabilize the 
situation in Afghanistan, and not only in Afghanistan but also 
in Pakistan--because our presence in Afghanistan also allows us 
to effect developments in Pakistan, which, if that were to 
fall, would be the ultimate nightmare, a nuclear-armed state--
and we are able to prevent Afghanistan from falling back under 
the control of the Taliban and their Al Qaeda allies, in 
effect, to prevent----
    Mr. Brooks. Mr. Boot----
    Mr. Boot [continuing]. A recurrence of the conditions that 
led to 9/11.
    Mr. Brooks [continuing]. I am going to interject for just a 
moment. I agree with you that national defense shouldn't take 
the hit that it has taken. That is why I voted against the 
Budget Control Act that imposes the sequestration.
    You have mentioned entitlements. Is that where you think we 
ought to cut because you believe that is a lesser priority than 
national defense? That is my question. Where would you cut?
    Mr. Boot. Well, I think entitlements are driving the out-
of-control deficits. And so, if we are going to address the 
deficits, we need to go where the money is, which is in 
entitlements, not in defense.
    Mr. Brooks. Well, you other two, the gavel has hammered, so 
you all get off the hook.
    Thank you, Mr. Boot.
    Mr. Wittman. Thank you, Mr. Brooks.
    I will ask that the witnesses, if you would, provide your 
comments in writing back to the committee for Mr. Brooks' 
question.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Wittman. And we will go to Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Thank the witnesses.
    In view of the pending vote, I want to be brief. I want to 
explore two issues: one, the vulnerability of our troops to 
cutoff of supply through Pakistan, particularly if we make a 
dramatic curtailment in aid to Pakistan; and, second, the 
allegiance of ANSF troops. What risk do we face that we may be 
training a force that could turn against us?
    So if you would help me with both of those questions, that 
would be great.
    General Keane. I will be glad to jump in.
    Well, obviously, we have had our main supply route closed 
for a number of months now, and we are able to sustain the 
force that we have. Two means to do that is the other supply 
route in the north and also the air line of communication that 
we have established. I think it is overstated, our dependency 
on that main supply route. It certainly is desirable because it 
is a lot easier to use, it is less costly, although the 
Pakistanis certainly want us to pay through the nose for the 
challenges that we had between them.
    So I think we could actually take the issue off the table, 
in my judgment, in terms of our relationship with Pakistan on 
this issue because we do have alternatives. And, most 
dramatically, our force size is coming down rather 
significantly, and therefore there is less requirement.
    And we have issues inside the ANSF, clearly, in terms of 
what we refer to as green-on-blue atrocities. And there is no 
doubt that the Taliban have looked at, how do we get at U.S. 
forces? Their major means of doing that has been, by and large, 
on the roads or on footpaths using explosive devices. And we 
are painfully aware of that. Their other strategy is 
infiltration into the security forces to be able to attack U.S. 
forces. And that has taken place.
    The good news is, in talking last night to General Bolger 
and also to Minister Wardak, General Wardak, who you know is--
they believe that they are stopping about 75 percent of what 
has happened by increasing their intelligence, by vetting 
people better, et cetera. They are very much aware of the 
challenge that we have.
    And I think the way our forces look at it is, as 
debilitating as that is, it is something that--a tool that the 
enemy is using. As the enemy is using an IED against us, they 
are using that kind of infiltration against our forces. It is 
frustrating for our forces to deal with that, but at the same 
time, look, our soldiers are pretty tough, and their resilience 
is extraordinary. And that does not diminish their performance 
nor the quality of that performance nor the extraordinary 
morale that they have had for all these years.
    Mr. Cooper. Would the witnesses generally agree with 
General Keane's assessment there, that we should take the 
Pakistan supply route off the table in negotiations with the 
Pakistanis and that there is not that significant a worry about 
green-on-blue?
    Dr. O'Hanlon. Well, I certainly agree that, logistically 
speaking, we are in a much better place vis-a-vis Pakistan. And 
my hat is off to our military logisticians and our diplomats 
who have developed the Northern Distribution Network. It is an 
amazing alternative. It still increases slightly uncomfortably 
our dependence on Vladimir Putin, but some of those routes 
don't require his explicit permission, and, in any event, we 
are in a much better place.
    I think the green-on-blue situation is still very 
troublesome. I don't think the General would trivialize it 
either. And I think it does run a risk of really eroding our 
ability to cooperate well with Afghan forces. General Allen was 
very concerned about it when he testified in March. I think it 
has risen to being a strategic concern. But I agree with 
General Keane that there are serious efforts being undertaken 
to try to at least cap it. That is not good enough, but that 
may be the best we can do in the short term. That would be my 
reflection there.
    If I could briefly comment on to whom the Afghan forces are 
loyal, because I think you asked a great question on that, 
Congressman, as well. A lot of this is going to turn on the 
2014 elections in Afghanistan, which are crucial, as we all 
recognize.
    I talked to a top Afghan general when I was visiting last 
month, and we asked him, what is your number-one concern about 
security in Afghanistan? And he said the 2014 elections, 
because we get the wrong person elected and all bets are off.
    And even though I don't think President Karzai has been a 
stellar leader, there are a couple of things he has done 
correctly that I believe the next leader needs to emulate, and 
one of them is to have non-Pashtun vice presidents. Now, 
preferably someone of greater repute than Fahim Khan, who is, 
of course, his first vice president. But the basic concept of 
having maybe a Tajik as the first vice president and made a 
Hazara or Uzbek as the second is a solid concept that I think 
probably needs to be adopted. I think a Pashtun will win in 
2014.
    Then the other point is in terms of the ministers of 
security. You need at least one non-Pashtun in those top two 
positions, as well. These are some of the elements that I think 
will be important.
    And then, of course, the President can't be more corrupt 
than Karzai's family. There are two or three people whose names 
I heard mentioned frequently as potential contenders who I 
think we need to find a way, quietly or explicitly, to veto. 
And that is the point I was trying to get at in my testimony, 
where I can't imagine this Congress funding $5 billion a year 
for Afghan aid if the next President of Afghanistan is even 
more problematic in this domain than the Karzai regime. And I 
think we need to send that message soon.
    Mr. Wittman. Thank you, Mr. Cooper.
    We will go to Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank the witnesses for their preparation and their 
testimony this morning.
    Dr. O'Hanlon, especially thank you for the advice you have 
given us over the weeks and years on strategic issues. You have 
been invaluable. We appreciate that very much.
    Mr. Boot, in the last sentence of your testimony, you say, 
``Most Afghans have no desire to be ruled by the Taliban. They 
simply need our continuing aid to consolidate their post-2001 
efforts to create a more inclusive and more moderate state.''
    How committed to a more inclusive and moderate state do you 
think the Karzai regime is in Afghanistan?
    Mr. Boot. Well, as Mike suggested, obviously President 
Karzai and his family are deeply problematic. There are 
obviously deep issues of corruption there, although it is 
possible to work with them, as we have seen in the recent 
agreements that were reached on night raids and the handover of 
the Parwan Detention Facility.
    And, basically, at the end of the day, I mean, I think 
there is no question that the Karzais, like a lot of the elites 
in Afghanistan, are trying to get the most they can out of the 
state. And a lot of them are doing very well, with Dubai bank 
accounts and so forth. But I think we are, in a lot of ways, 
encouraging that by not having good controls over our spending. 
And by also setting deadlines for our departure, what you are 
basically saying is, get as much as you can now because the 
country is going to go----
    Mr. Andrews. But isn't the other half of that argument 
saying that, you know, we will stay indefinitely and keep 
writing checks, isn't it encouraging that kind of behavior?
    Let me ask you this question: I completely agree that, 
obviously, an extension of Taliban rule in any part of that 
country is wholly undesirable, and it is the reason we are 
still there; it is what we are trying to prevent. I am 
concerned, though--I want to know if any of the witnesses are 
concerned--that the present regime might find it quite 
acceptable to have an unwritten agreement where they would stay 
in power but there would, in fact, be parts of the country that 
would be ruled by the Taliban and do whatever they want.
    I mean, aren't we at risk that this regime would double-
bank us, preserve their own control of the country, their own 
wealth, and just look the other way as the Taliban rules 
certain parts of the country and perhaps once again is the host 
for the Al Qaeda parasite? What is wrong with that hypothesis?
    Any of the witnesses.
    General Keane. Well, first of all, this regime is going, 
and thank God for that. You know, Ryan Crocker, I think, has 
worked--you know how capable he is as an ambassador. He is the 
best in the business----
    Mr. Andrews. He sure is.
    General Keane [continuing]. In this part of the world. And 
he is confident that there will be a political transition. And 
that was not always the view. There was some speculation, as 
you know, that Karzai would find some means to sort of hang on 
here by constitutional reform. Not happening. He is going.
    I don't think we will get a transformational leader, but I 
do believe we will get a leader who clearly understands the 
legacy of the past and the problems it has caused his country 
and they will try to make some incremental improvements, much 
more along the lines of what we had seen take place in Korea 
over a number of years.
    So I am not of the mind that the regime is going to get 
worse, although there is potential for that. And I clearly 
believe that we should be all-in helping to influence that 
situation, as Michael has suggested, and do a much better job 
of it here than what we did in Iraq.
    Mr. Andrews. If I could paraphrase my question, what I am 
really asking is, how confident are we that the Afghan regime's 
interests are truly aligned with ours? And to the extent that 
they are not, what can we do to influence the regime in 
becoming aligned with it?
    And the specificity of this is that it is absolutely not in 
our best interests for the Taliban to control a square inch of 
Afghanistan. I agree with that. But they may see it as being 
somewhat in theirs. How do we make sure that our interests are 
aligned?
    General Keane. Well, I don't know--just to finish up, I was 
going to answer that question. I don't know political leaders 
in Afghanistan that I have dealt with who would be willing to 
cede any of that country to the Taliban, and for all the 
obvious reasons in terms of tyrannical rule, violation of human 
and civil rights, and what that would mean inside of their 
country. There would be absolutely no toleration for political 
leaders doing something like that, in my view.
    You know, one of the most remarkable things that took place 
was the loya jirga that took place last summer asking for the 
special relationship with the United States. The participation 
in that came from virtually every province in the country----
    Mr. Andrews. My time is about to expire. I appreciate the 
answer.
    Let me just close, Mr. Chairman, by saying this, that I 
sometimes think, through our majority and yours and through the 
Republican administration and the Democratic administration, we 
have been asking the wrong question, which is, how competent 
are we at transitioning over to Afghan security? I think the 
question is, how willing are they to accept it?
    And, you know, our troops are doing a fantastic job there 
under very difficult circumstances. I think these gentlemen 
have given us very sage tactical advice on how to achieve it. 
But tactical measures fail if there isn't strategic uniformity, 
and I really wonder if it exists here.
    Thank you.
    Mr. Wittman. Thank you, Mr. Andrews. We appreciate that.
    Gentlemen, thank you so much for spending your time with us 
today. As you can see, we are on the front end of a vote 
series, and I want to make sure that we have an opportunity, if 
there are any questions that the panel has to ask, that they be 
able to submit those in writing and to ask that you be able to 
answer those for the committee.
    Mr. Wittman. And, with that, again, thank you for appearing 
before us today.
    And, with that, this hearing is adjourned.
    [Whereupon, at 11:59 a.m. the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             June 29, 2012

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 29, 2012

=======================================================================

      
                     Statement of Hon. Rob Wittman

      Chairman, House Subcommittee on Oversight and Investigations

                               Hearing on

               Expert Assessments on the Afghan National

               Security Forces: Resources, Strategy, and

                 Timetable for Security Lead Transition

                             June 29, 2012

    Today the Oversight and Investigations subcommittee 
convenes the second of a series of hearings related to the 
Afghan National Security Forces.
    At this hearing, we will receive testimony from outside 
experts about the resources and strategy which the U.S. and 
NATO are devoting to training the ANSF and the timetable for 
transitioning security lead responsibility to the ANSF.
    Our panel today includes:
        <bullet> LMax Boot, Jeane J. Kirkpatrick Senior Fellow 
        for National Security Studies at the Council on Foreign 
        Relations;
        <bullet> LRetired General Jack Keane, Former Vice Chief 
        of Staff of the U.S. Army; and
        <bullet> LMichael O'Hanlon, Director of Research and 
        Senior Fellow at the Foreign Policy Program at the 
        Brookings Institution.
    Thank you for your participation. We look forward to your 
testimony.
    My views on these issues have been informed by a recent 
trip to Afghanistan. During my visit, I traveled to several 
provinces and met with local leaders, including the chiefs of 
police. I also had the opportunity to talk to military 
commanders, who provided their impressions of the level of 
support that will be needed to create a self-sustaining ANSF. 
It is my hope that our witnesses today can provide further 
context on these important issues.
    Before we move on, I want to take a moment to highlight the 
extraordinary efforts of our All-Volunteer Force serving in 
Afghanistan. These brave men and women are conducting daily 
combat operations against the Taliban, Al Qaeda, and associated 
terrorist networks. Earlier this month, I saw their sacrifice 
firsthand, and I want to convey my appreciation for their 
service here today. 

[GRAPHIC] [TIFF OMITTED] T5146.001

[GRAPHIC] [TIFF OMITTED] T5146.002

[GRAPHIC] [TIFF OMITTED] T5146.003

[GRAPHIC] [TIFF OMITTED] T5146.004

[GRAPHIC] [TIFF OMITTED] T5146.005

[GRAPHIC] [TIFF OMITTED] T5146.006

[GRAPHIC] [TIFF OMITTED] T5146.007

[GRAPHIC] [TIFF OMITTED] T5146.008

[GRAPHIC] [TIFF OMITTED] T5146.009

[GRAPHIC] [TIFF OMITTED] T5146.010

[GRAPHIC] [TIFF OMITTED] T5146.011

[GRAPHIC] [TIFF OMITTED] T5146.012

[GRAPHIC] [TIFF OMITTED] T5146.013

[GRAPHIC] [TIFF OMITTED] T5146.014

[GRAPHIC] [TIFF OMITTED] T5146.015

[GRAPHIC] [TIFF OMITTED] T5146.016

[GRAPHIC] [TIFF OMITTED] T5146.017

[GRAPHIC] [TIFF OMITTED] T5146.018

[GRAPHIC] [TIFF OMITTED] T5146.019

[GRAPHIC] [TIFF OMITTED] T5146.020

[GRAPHIC] [TIFF OMITTED] T5146.021

[GRAPHIC] [TIFF OMITTED] T5146.022

[GRAPHIC] [TIFF OMITTED] T5146.023

[GRAPHIC] [TIFF OMITTED] T5146.024

[GRAPHIC] [TIFF OMITTED] T5146.025

[GRAPHIC] [TIFF OMITTED] T5146.026

[GRAPHIC] [TIFF OMITTED] T5146.027

[GRAPHIC] [TIFF OMITTED] T5146.028

[GRAPHIC] [TIFF OMITTED] T5146.029

[GRAPHIC] [TIFF OMITTED] T5146.030

[GRAPHIC] [TIFF OMITTED] T5146.031

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 29, 2012

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. BROOKS

    Dr. O'Hanlon. I believe that deficit reduction must be broad-based 
to be politically feasible and mathematically practical and 
economically wise. That means entitlement spending, discretionary 
spending, and revenues must all be on the table. Our current deficit is 
roughly $1 trillion a year, perhaps a bit less if one adjusts for where 
we stand in the economic recovery. I believe that, beyond declining war 
costs in Afghanistan, the core defense budget can absorb those cuts 
scheduled in the first tranche of the Budget Control Act without 
serious prejudice to our national security, as I explained in detail 
last year in my book The Wounded Giant: America's Armed Forces in an 
Age of Austerity.
    I agree that American deficits and the economic weakness they 
engender have become a major threat not only to our economy and our 
future way of life, but to our national security as well. Admiral Mike 
Mullen was right on this point. Indeed, this has been an important 
theme of my two latest books--The Wounded Giant in 2011, where I looked 
for economies in the defense budget, and Bending History: Barack 
Obama's Foreign Policy this year (with Martin Indyk and Kenneth 
Lieberthal), where we argued that even though President Obama's foreign 
policy record is reasonably good in one sense, it is built on the shaky 
pillar of an American economy that is going through extremely difficult 
times. Economic renewal must be the agenda of the next Congress and the 
next presidential term, be it under Governor Romney or President Obama. 
Otherwise our national security will likely suffer.
    In terms of deficit reduction strategies, I believe on policy and 
political grounds that the only way to move forward is to create a 
climate of shared sacrifice. While I support the defense cuts in the 
first tranche of the Budget Control Act, as reflected in the Obama 
administration defense strategy document of 2012 and budget proposal 
for FY 2013, I am troubled by the BCA's almost exclusive focus on so-
called discretionary budget accounts. More effective deficit reduction 
efforts require tax and entitlement reform that slow the growth of the 
latter and lead to net revenue increases in regard to the former, in my 
judgment. The entitlement reforms need not be cuts per se, and the tax 
reform need not involve higher rates if sufficient loopholes are 
closed, but we need to spend less and take in more revenue than current 
projections imply.
    On Afghanistan, we need to do what it takes to prevent the return 
of Al Qaeda to a sanctuary in that country, as the threat of Al Qaeda 
is much greater than the $25 billion a year in steady state costs I 
would project for the mission there from 2015 through 2020. But this 
continued investment in Afghanistan only makes sense if Afghans do 
their part as well, particularly with their 2014 election and 
governance reforms. [See page 16.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 29, 2012

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. CRITZ

    Mr. Critz. What is your understanding of the breakdown of $4.1B 
spending proposed for ANSF? Does it include train and equip, SFA 
(Security Assistance Force) or only direct costs to train, equip, and 
pay for salaries and operations of the ANSF?
    Dr. O'Hanlon. The $4.1 billion/year figure for post-2014 expenses 
is for just the Afghan security forces. I consider it unrealistically 
low by comparison with likely needs.
    Mr. Critz. What are your thoughts on the Security Force Assistance 
(SFA) model: numbers, ROE, etc. Where are we with the planning for 
this? Do you think it will work?
    Dr. O'Hanlon. I believe we will need some 20,000 U.S. forces in 
Afghanistan after 2014 to do the job right--at least for a few years, 
or until Pakistan begins to clamp down more effectively on the Taliban 
sanctuaries on its soil, or until there is a peace accord between major 
elements of the Afghan Taliban and Afghan government.
    Mr. Critz. Is the ANSF respected by Afghans? Is it respected by the 
Taliban? Are there differences in perceptions about the various 
elements of the ANSF?
    Dr. O'Hanlon. Yes the ANSF is generally respected by Afghans 
according to all polls I have seen, but there are also concerns about 
corruption within its ranks. I believe the Taliban is gaining more 
respect for the ANSF, particularly its special forces and certain other 
units. But the Taliban also probably still thinks that on balance it 
can defeat the ANSF once NATO is gone.
    Mr. Critz. What are your thoughts on why the poppy crop is down? 
How much is due to environmental factors (drought, blight, etc.) and 
how much due to ISAF or GIROA efforts? Can this lower level of 
production be sustained once U.S. forces withdraw?
    Dr. O'Hanlon. My understanding of the reasons for reduced poppy 
production suggest that we should consider this only a modest success 
to date (in other words, blight and related causes account for much of 
the decline--and production is in fact still rather high).
    Mr. Critz. How do we deal with the Pakistan safe havens? Is 
Pakistan currently taking actions to eliminate safe havens for the 
Haqqani Network, the Quetta Shura Taliban, or HiG? Do we expect such 
actions in the future? Why or why not?
    Dr. O'Hanlon. Pakistan is not doing much yet to shut down 
sanctuaries on its soil. Bruce Riedel and I wrote about our ideas in a 
new Brookings book, Campaign 2012. Basically we advocated being tougher 
on the Pakistani military (e.g., less aid) and more supportive of the 
Pakistani economy and civil society (e.g., more development aid and 
greater efforts to move to a free-trade accord)
    Mr. Critz. How do we deal with Afghan government corruption? What 
are the impacts of corruption? What level of confidence should NATO 
members have that corruption will be controlled post-2014? Does 
corruption currently undermine the effectiveness of GIROA and the ANSF? 
Is governmental corruption linked at all to the Taliban's ability to 
recruit new fighters?
    Dr. O'Hanlon. Yes Afghan government corruption is still serious and 
yes it helps the insurgency. I favor focusing on the looming 2014 
elections in Afghanistan and underscoring to President Karzai how 
important it is that he and his supporters NOT try to engineer the 
election of a successor who may make the problem worse. I also believe 
that modest reductions in our aid budget are a good thing not a bad 
thing, for this same reason.
    Mr. Critz. In your opinion, what will determine ANSF success? What 
factors could undermine ANSF capability and success in the future?
    Dr. O'Hanlon. To be successful, the ANSF needs to avoid ethnic 
fights from within its ranks, have adequate western financial support 
and mentoring and combat backup even after 2014, and get a little help 
from Islamabad in terms of Pakistan at least partially curtailing the 
ability of the Afghan insurgency to use Pakistani sanctuaries.
    Mr. Critz. Can the Afghan Local Police (ALP) be sustained when we 
leave? Who will fund and train? Does the Afghan Ministry of the 
Interior have the ability to effectively oversee and control the ALP 
sites and units in the absence of USSOF?
    Dr. O'Hanlon. I am a supporter of the ALP, yes, but I would not 
grow it so much that we can't help oversee it after 2014 ourselves, at 
least to a degree.
    Mr. Critz. What are the strengths and weaknesses of the ALP?
    Dr. O'Hanlon. The ALP is a good fighting force overall but it can 
be sucked into tribal politics locally and its effectiveness can be 
compromised as a result, or it can even be used to settle tribal scores 
rather than fight the Taliban. Also negative perceptions of the ALP can 
grow even if the ALP units themselves get better, because of the rumor 
mill.
    Mr. Critz. Can you please explain your understanding of the 
procedures by which we control ALP funding and make sure it won't be 
misspent.
    Dr. O'Hanlon. The ALP is a good fighting force overall but it can 
be sucked into tribal politics locally and its effectiveness can be 
compromised as a result, or it can even be used to settle tribal scores 
rather than fight the Taliban. Also negative perceptions of the ALP can 
grow even if the ALP units themselves get better, because of the rumor 
mill.
    Mr. Critz. General Allen has stated there are three key factors for 
successful transition in Afghanistan: 1) security, 2) governance, and 
3) development. Do you agree? Are there any other factors that you 
believe are significant?
    Dr. O'Hanlon. Yes, beyond what General Allen has cited, Pakistani 
help, or at least less Pakistani damage to our efforts, would be a 4th 
leg of the effort in my eyes.
    Mr. Critz. What are the strengths and weaknesses of the Taliban 
insurgency?
    Dr. O'Hanlon. The Taliban is unsophisticated and has lost lots of 
its midlevel commanders over the years and has an unappealing ideology 
for most Afghans. But it has intact high-level commanders and 
sanctuaries in Pakistan, great tenacity, the ability to play off 
perceptions of Afghan government corruption to recruit, and a smart use 
of tactics that minimize harm to most of the population while employing 
assassination and precise strikes against government officials and 
security forces. It is alas an impressive enemy on balance.
    Mr. Critz. How would you define a successful outcome of the 
American/coalition effort in Afghanistan?
    Dr. O'Hanlon. A minimal but perhaps adequate definition of success 
is an Afghanistan that does not fall apart and that controls most of 
its territory and thereby precludes return of extremist sanctuaries (at 
least big ones) to its own territory. To make this sustainable, the 
government will need greater legitimacy among its own people, too.
    Mr. Critz. Lieutenant General Bolger stated that if the ANSF is 
reduced below 352,000 he believed many of those that leave ANSF will go 
into civilian positions with the Afghanistan government. Do you agree? 
Will there be any program to facilitate such placements? Do those 
personnel have skills that would be directly applicable to such 
positions? Can GIROA support such an increased number of personnel?
    Dr. O'Hanlon. I think unemployment will be a big problem in 
Afghanistan for many years to come. Many will compete for government 
jobs because the private sector is weak and will remain weak for a long 
time to come. I am not sure that most soldiers who leave the ANSF will 
find other government work.
    Mr. Critz. Please describe your understanding of the operational 
assessment process used to evaluate the ANSF in the 1230 reports? What 
data is collected? Who evaluates the data? What method of analysis is 
used to evaluate the data? Who makes the final decision as to a CUAT 
determination? Is there any additional information the 1230 reports 
should include in the future?
    Dr. O'Hanlon. I think the CUAT system is better than what preceded 
it but still relies too much on the judgment of the NATO commanders who 
work with any given Afghan unit. This unintentionally biases the data. 
I am more interested in demonstrated field performance by Afghan units 
than in CUAT scores.
    Mr. Critz. What areas of ANSF should the subcommittee focus its 
investigation on?
    Dr. O'Hanlon. The subcommittee should keep focusing on ANSF field 
performance, corruption, and ethnic cohesion.
    Mr. Critz. How willing is the Afghan government to accept the 
transition?
    Dr. O'Hanlon. The Afghan government wants the transition. At least 
it feels that way now!
    Mr. Critz. How confident are we that the Afghan government is 
aligned with U.S. interests? How do we make sure our interests are 
aligned?
    Dr. O'Hanlon. Our interests are adequately aligned over the long 
term because we both want a functional, stable Afghanistan. But on the 
means to get there, we often diverge a good deal.
    Mr. Critz. Is there any evidence that old members of Northern 
Alliance are rearming for possible civil war after transition, as 
suggested by CRS?
    Dr. O'Hanlon. I do believe the worries of civil war among Afghans 
are greater now than say 5 years ago. I do not believe they are acute 
or continuously worsening, however. At least not at this point.
    Mr. Critz. Could you please identify any provinces or locations 
where you are concerned local militia may cause problems for the 
national Afghan government?
    Dr. O'Hanlon. I am most worried about the south and east, 
naturally, but also Baghlan and parts of the north where there are 
Pashtun pockets of population.
    Mr. Critz. How have the most recent Parliamentary elections (2010) 
impacted the opinion on Afghans on the legitimacy of the government and 
the its ability to provide security?
    Dr. O'Hanlon. I am a guarded optimist about the Afghan parliament. 
I think it is gradually doing a better job. I would encourage the U.S. 
Congress to ``partner'' more with the parliament to help it develop 
further.
    Mr. Critz. What is your opinion about governing capacity at local 
levels?
    Dr. O'Hanlon. Provincial governance is getting better all the time, 
as I learned from a visit to the Asia Foundation (among other research 
efforts) when last in Afghanistan in May. District governance is still 
spotty and very uneven.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
